Executive Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants to the Haverford Township, Pennsylvania Police Department
GR-70-99-004March 1999Office of the Inspector General

EXECUTIVE SUMMARY
On November 25, 1998, the Office of the Inspector General, Audit Division, issued a warning letter (See Attachment 2) on grants awarded to the Haverford Township, Pennsylvania Police Department (Haverford) by the Office of Community Oriented Policing Services (COPS).  Haverford was awarded Funding Accelerated for Small Towns (FAST) and Universal Hiring Program (UHP) grants totaling $375,000 to hire five full-time officers.

Grant guidelines require that each grantee establish and maintain an accounting and financial records system to accurately account for funds awarded.  Such a system should:


present and itemize approved costs of salaries and benefits, and show the actual costs of salaries and benefits;
	assure responsible use of grant funds;
	assure that funds are spent in conformance with the grant conditions; and
	provide the necessary information for periodic review and audit.

On February 1, 1999, we returned to Haverford to determine if the audit could be conducted.  After reviewing material Haverford provided and discussing the matter with the Deputy Chief, we concluded that the audit could not be conducted.

Haverford could not provide us with the basis for its reimbursement requests or its Financial Status Reports.  Specifically, Haverford's accounting system did not include program accounts to allow for the separate identification and accounting of the funds applied to each budget category included within the approved award.  The OJP Financial Guide, page 22, requires that grantees' accounting systems be capable of separately accounting for funds applied to each budget category.  In addition, the costs recorded in the reimbursement requests and Financial Status Reports could not be traced to the supporting documentation.  Therefore, we could not readily determine if Haverford spent COPS funds in accordance with the terms and conditions of its grants.

Haverford officials agreed that their reimbursement requests and Financial Status Reports could not be traced to the supporting documentation.  They said that the reimbursement requests and Financial Status Reports needed to be reconstructed so that they reconciled with the supporting documents.  In addition, Haverford officials agreed to develop spreadsheets that summarize each reimbursement request and Financial Status Report by showing the funds applied to each approved budget category.  

Because Haverford could not provide us with the critical records previously described, and we were not able to apply other auditing procedures to satisfy ourselves that grant funds were spent in accordance with grant terms and conditions, the scope of our work was not sufficient to enable us to determine if Haverford was in compliance with the grant terms and conditions.  Therefore, we are questioning all funds received by Haverford as unsupported and recommending that future funds be withheld as funds to better use.

While the scope of our work was not sufficient to enable us to determine if Haverford was in compliance with the grant terms and conditions, we did determine that Haverford hired three UHP-funded officers before the grant start date.  Haverford did not receive written permission from COPS to hire the officers prior to the grant start date as required by the grant's non-supplanting condition.  However, Haverford officials said they received verbal permission from COPS to hire the officers before the grant start date.  As a result, we are recommending that COPS bring Haverford into compliance with the UHP non-supplanting condition.



Footnotes
QUESTIONED COSTS are monies that, at the time of the audit, do not comply with legal requirements, or are unsupported, or are unnecessary or unreasonable.  They can be recoverable or non-recoverable.

FUNDS TO BETTER USE are defined as monies that have not been spent that could be more efficiently used in the future if management acts on our finding.